No. 19-1039

 

 

IN THE
Supreme Court of the United States

PENNEAST PIPELINE COMPANY, LLC,

Petitioner,
v.

STATE OF NEW JERSEY; NEW JERSEY DEPARTMENT OF
ENVIRONMENTAL PROTECTION; NEW JERSEY STATE
AGRICULTURE DEVELOPMENT COMMITTEE; DELAWARE
& RARITAN CANAL COMMISSION; NEW JERSEY WATER
SUPPLY AUTHORITY; NEW JERSEY DEPARTMENT OF
TRANSPORTATION; NEW JERSEY DEPARTMENT OF THE
TREASURY; NEW JERSEY MOTOR VEHICLE COMMISSION,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF OF THE PENNSYLVANIA
MANUFACTURERS’ ASSOCIATION AND
THE NEW JERSEY BUSINESS & INDUSTRY
ASSOCIATION AS AMICI CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,989 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 23, 2020.

( le
Colin Casey Hogan

Wilson-Epes Printing Co., Inc.
